18

APPENDIX A1 of 2
IDAHO SUPREME COURT
Clerk of the Courts
PO Box 83720
Boise, Idaho 83720-0101
(208) 334-2210
BENEFICIAL FINANCIAL Appellant Brief Due
I INC.,
Plaintiff-Respondent,
Docket No. 46509-2018
v.

MARILYNN THOMASON
Defendant-Appellant
Defendant-Appellant,
and
The Unknown Heirs,
Assigns and Devisees
of BYRON T, MADISON
COUNTY, IDAHO; JOHN
BAGLEY, TERRENCE
BAGLEY, BEARD ST.
CLAIR GAFFNEY PA,
GREG V. THOMASON,
DIANA THOMASON,
W. BRENT EAMES,
LIBERTY PARK
IRRIGATIONS CO,
RIGBY, ANDRUS &

Madison County
District Court
CV-2015-74

19

APPENDIX A2 of 2
RIGBY CHARTERED,
ABUNDANT LAND
HOLDINGS, LLC,
THOMAS C. LUTHY,
LAURA B. LUTHY,
FORSBERG LAW
OFFICES, CHTD,
R. SAM HOPKINS,
and DOES 1 through 20,
Defendants.

The Clerk’s Record and Supplemental Clerk’s Record
for the above-entitled appeal was filed in this office on
December 19, 2019.
The current Appellate Rules require that the
Appellant Brief be filed in this office or postmarked
by January 23, 2020.
Dated 12/19/2019
For the Court:
Karel A. Lehrman
Clerk of the Courts

Appellant Brief Filed (68) (eff. 06/08/2018) Page 1 of 1

20

APPENDIX B1 of 3
IDAHO SUPREME COURT
Clerk of the Courts
PO Box 83720
Boise, Idaho 83720-0101
(208) 334-2210
BENEFICIAL FINANCIAL Transmittal Document
I INC.,
Plaintiff-Respondent,
Docket No. 46509-2018
v.

MARILYNN THOMASON
Defendant-Appellant
Defendant-Appellant,
and
The Unknown Heirs,
Assigns and Devisees
of BYRON T, MADISON
COUNTY, IDAHO; JOHN
BAGLEY, TERRENCE
BAGLEY, BEARD ST.
CLAIR GAFFNEY PA,
GREG V. THOMASON,
DIANA THOMASON,
W. BRENT EAMES,
LIBERTY PARK
IRRIGATIONS CO,
RIGBY, ANDRUS &

Madison County
District Court
CV-2015-74

21

APPENDIX B2 of 3
RIGBY CHARTERED,
ABUNDANT LAND
HOLDINGS, LLC,
THOMAS C. LUTHY,
LAURA B. LUTHY,
FORSBERG LAW
OFFICES, CHTD,
R. SAM HOPKINS,
and DOES 1 through 20,
Defendants.

I

I

The enclosed document(s) to the above-entitled case
is/are forwarded for you information.
Dated 01/22/2020
For the Court:
Karel A. Lehrman
Clerk of the Courts

Appellant Brief Filed (58) (eff. 06/08/2018) Page 1 of 2

22

APPENDIX B3 of 3
cc-

MARILYNN T. THOMASON
2184 Charming Way
Box 251
Idaho Falls, ID 83404
COUNSEL OF RECORD - VIA EMAIL
DISTRICT COURT CLERK ■ VIA EMAIL
DISTRICT COURT JUDGE - VIA EMAIL

Appellant Brief Filed (58) (eff. 06/08/2018) Page 2 of 2

23

APPENDIX Cl of 3
IDAHO SUPREME COURT
Clerk of the Courts
PO Box 83720
Boise, Idaho 83720-0101
(208) 334-2210
BENEFICIAL FINANCIAL Appellant Brief Due
I INC.,
Docket No. 46509-2018
Plaintiff-Respondent,
v.

MARILYNN THOMASON
Defendant-Appellant
Defendant-Appellant,
and
The Unknown Heirs,
Assigns and Devisees
of BYRON T, MADISON
COUNTY, IDAHO; JOHN
BAGLEY, TERRENCE
BAGLEY, BEARD ST.
CLAIR GAFFNEY PA,
GREG V. THOMASON,
DIANA THOMASON,
W. BRENT EAMES,
LIBERTY PARK
IRRIGATIONS CO,

Madison County
District Court
CV-2015-74

24

APPENDIX C2 of 3
RIGBY, ANDRUS &
RIGBY CHARTERED,
ABUNDANT LAND
HOLDINGS, LLC,
THOMAS C. LUTHY,
LAURA B. LUTHY,
FORSBERG LAW
OFFICES, CHTD,
R. SAM HOPKINS,
and DOES 1 through 20,
Defendants.

Be advised, the following was filed in this office on
January 21, 2020 on behalf of Appellant. Name of
Document Filed: Extension of Time For Filing
Opening Brief.
This appeal is SUSPENDED for a ruling on
Appellant’s Extension of Time for Filing Opening
Brief.
For the Court:
Karel A. Lehrman
Clerk of the Courts

Document(s) Filed (9) (eff. 06/04/2018 Page 1 of 2

25

APPENDIX C3 of 3
cU

MARILYNN T. THOMASON
2184 Channing Way
Box 251
Idaho Falls, ID 83404
COUNSEL OF RECORD - VIA EMAIL
DISTRICT COURT CLERK ■ VIA EMAIL

Document(s) Filed (9) (eff. 06/04/2018) Page 2 of 2

26

APPENDIX D1 of 5
IDAHO SUPREME COURT
Clerk of the Courts
PO Box 83720
Boise, Idaho 83720-0101
(208) 334-2210
BENEFICIAL FINANCIAL | Transmittal of
I INC.,
Document
Plaintiff-Respondent,
Docket No. 46509-2018
v.

MARILYNN THOMASON
Defendant-Appellant
Defendant-Appellant,
and
The Unknown Heirs,
Assigns and Devisees
of BYRON T, MADISON
COUNTY, IDAHO; JOHN
BAGLEY, TERRENCE
BAGLEY, BEARD ST.
CLAIR GAFFNEY PA,
GREG V. THOMASON,
DIANA THOMASON,
W. BRENT EAMES,
LIBERTY PARK
IRRIGATIONS CO,
RIGBY, ANDRUS &

Madison CountyDistrict Court
CV-2015-74

27

APPENDIX D2 of 5
RIGBY CHARTERED,
ABUNDANT LAND
HOLDINGS, LLC,
THOMAS C. LUTHY,
LAURA B. LUTHY,
FORSBERG LAW
OFFICES, CHTD,
R. SAM HOPKINS,
and DOES 1 through 20
Defendants.

I

I

The enclosed document(s) relating to the aboveentitled case is/are forwarded for your information.
Order Granting Third Motion for Extension of Time.
Appellant’s Brief Due: May 15, 2020
Dated 04/21/2020
For the Court:
Karel A. Lehrman
Clerk of the Courts
cc: COUNSEL OF RECORD VIA EMAIL
MARILYNN THOMASON
2184 Channing Way
Box 251
Idaho Falls, Idaho 83404

28

APPENDIX D3 of 5

In the Supreme Court of the State of Idaho

BENEFICIAL FINANCIAL Order Granting Third
I INC.,
Motion for Extension
of Time
Plaintiff- Re sp ondent,

v.

MARILYNN THOMASON
Defendant-Appellant
Defendant-Appellant,
and
The Unknown Heirs,
Assigns and Devisees
of BYRON T, MADISON
COUNTY, IDAHO; JOHN
BAGLEY, TERRENCE
BAGLEY, BEARD ST.
CLAIR GAFFNEY PA,
GREG V. THOMASON,
DIANA THOMASON,
W. BRENT EAMES,
LIBERTY PARK
IRRIGATIONS CO,

Supreme Court
Docket No. 46509-2018
Madison County
District Court
CV-2015-74

29

APPENDIX D4 of 5
RIGBY, ANDRUS &
RIGBY CHARTERED,
ABUNDANT LAND
HOLDINGS, LLC,
THOMAS C. LUTHY,
LAURA B. LUTHY,
FORSBERG LAW
OFFICES, CHTD,
R. SAM HOPKINS,
and DOES 1 through 20,
Defendants.

An Order Re: Thomason Second Motion I.A.R. Rules
34(d) Extension to file was entered by this Court on
March 6, 2020, granting Appellant an extension of
thirty-five (35) days to file the Appellant’s Brief and
denying any additional relief.
Thereafter,
THOMASON’S THIRD Motion: I.A.R. Rules 34(d)
EXTENSION TO FILE was filed by Appellant on
April 8, 2020. Therefore, after due consideration,
Having reviewed Appellant’s
document
entitled THOMASON’s THIRD MOTION: I.A.R. Rule
34(d) EXTENSION TO FILE, the Court ORDERS as
follows:
1.
The request for a third extension of time for
filing brief is GRANTED. Appellant is granted one
final extension of thirty-five (35) das to file
Appellant’s Brief.
ORDER GRANTING THIRD MOTION FOR
EXTENSION OF TIME - Docket No. 46509-2018

30

APPENDIX D5 of 5
2.) To the extent Appellant’s request seeks
any additional relief, the motion is DENIED.
Dated April 21st, 2020
By Order of the Supreme Court
G. Richard Bevan, Justice
ATTEST:
Karel A. Lehman, Clerk

ORDER GRANTING THIRD MOTION FOR
EXTENSION OF TIME - Docket No. 46509-2018

31

APPENDIX El of 3

In the Supreme Court of the State of Idaho

BENEFICIAL FINANCIAL | Order Denying
I INC.,
I Appellant’s Motion to
I Compel and Stay of
Plaintiff-Respondent | I.C.C. Order for Filing
| Opening Brief
v.

| Supreme Court
| Docket No. 46509-2018
| Madison County
| District Court
I CV-2015-74

MARILYNN THOMASON
Defendant-Appellant
Defendant-Appellant,
and
The Unknown Heirs,
Assigns and Devisees
of BYRON T, MADISON
COUNTY, IDAHO; JOHN
BAGLEY, TERRENCE
BAGLEY, BEARD ST.
CLAIR GAFFNEY PA,
GREG V. THOMASON,
DIANA THOMASON,
W. BRENT EAMES,

32

APPENDIX E2 of 3
LIBERTY PARK
IRRIGATIONS CO,
RIGBY, ANDRUS &
RIGBY CHARTERED,
ABUNDANT LAND
HOLDINGS, LLC,
THOMAS C. LUTHY,
LAURA B. LUTHY,
FORSBERG LAW
OFFICES, CHTD,
R. SAM HOPKINS,
and DOES 1 through 20,
Defendants.

I
I

APPELLANT’S MOTION TO COMPEL and
STAY OF I.S.C. ORDER FOR FILING OPENING
BRIEF as filed by Appellant on May 15, 2020.
Therefore, after due consideration!
IT
IS
HEREBY
ORDERED
THAT
APPELLANT’S MOTION TO COMPEL AND STAY
OF I.S.C. ORDER FOR FILING OPENING BRIEF
be, and is hereby, DENIED. Appellant’s Opening
Brief shall be filed on or before June 12, 2020, or the
appeal will be dismissed.
Dated 06/03/2020
By Order of the Supreme Court
Roger S. Burdick

33

APPENDIX E3 of 3
Chief Justice
ATTEST:
Karel A. Lehrman
Clerk of the Court

34

APPENDIX FI of 3
In the Supreme Court of the State of Idaho

BENEFICIAL FINANCIAL I Order Denying
I INC.,
I Appellant’s Motion and
I Dismissing Appeal
Plaintiff-Respondent,
I Supreme Court
I Docket No. 46509-2018
v.

MARILYNN THOMASON
Defendant-Appellant
Defendant-Appellant,
and
The Unknown Heirs,
Assigns and Devisees
of BYRON T, MADISON
COUNTY, IDAHO; JOHN
BAGLEY, TERRENCE
BAGLEY, BEARD ST.
CLAIR GAFFNEY PA,
GREG V. THOMASON,
DIANA THOMASON,
W. BRENT EAMES,
LIBERTY PARK
IRRIGATIONS CO,
RIGBY, ANDRUS &
RIGBY CHARTERED,

Madison County
District Court
CV-2015-74

35

APPENDIX F2 of 3
ABUNDANT LAND
HOLDINGS, LLC,
THOMAS C. LUTHY,
LAURA B. LUTHY,
FORSBERG LAW
OFFICES, CHTD,
R. SAM HOPKINS,
and DOES 1 through 20,
Defendants.

An Order Denying Appellant’s Motion to
Compel and Stay of I.S.C. Order for filing Opening
Brief was entered by this Court on June 3, 2020,
stating the Appellant’s Brief shall be filed on or before
June 12, 2020, or the appeal would be dismissed
without further notice.
A MOTION FOR
RECONSIDERAION was filed by Appellant on June
11, 2020. Therefore, after consideration,
IT IS HEREBY ORDERED THAT Appellant’s
MOTION FOR RECONSIDERATION be, and is
hereby DENIED.
IT IS FURTHER ORDERED that this Appeal
be, and is hereby, DISMISSED, as the Appellant’s
Brief has not been filed.
Dated this 22 day of June, 2020
By Order of the Supreme Court

36

APPENDIX F3 of 3
Roger S. Burdick
Chief Justice
ATTEST:
Melamie Gagnepain
Clerk of the Courts

36:2

APPENDIX F4
In the Supreme Court of the State of Idaho

BENEFICIAL FINANCIAL | Order Denying
I INC.,
Appellant’s Motion for
Reconsideration
Plaintiff-Respondent,
I Supreme Court
I Docket No. 46509-2018
v.

MARILYNN THOMASON
Defendant-Appellant
Defendant-Appellant,
and
The Unknown Heirs,
Assigns and Devisees
of BYRON T, MADISON
COUNTY, IDAHO; JOHN
BAGLEY, TERRENCE
BAGLEY, BEARD ST.
CLAIR GAFFNEY PA,
GREG V. THOMASON,
DIANA THOMASON,
W. BRENT EAMES,
LIBERTY PARK
IRRIGATIONS CO,
RIGBY, ANDRUS &
RIGBY CHARTERED,

Madison County
District Court
CV-2015-74

36:3

APPENDIX F5
ABUNDANT LAND
HOLDINGS, LLC,
THOMAS C. LUTHY,
LAURA B. LUTHY,
FORSBERG LAW
OFFICES, CHTD,
R. SAM HOPKINS,
and DOES 1 through 20,
Defendants.

I

An Order Denying Appellant’s Motion and
Dismissing Appeal was entered by this Court on June
22, 2020. A MOTION FOR RECONSIDERATION
was filed by Appellant on July 10, 2020v and a
SUPPRTING BRIEF was filed by Appellant on July
22, 2020. Therefore, after due consideration,
IT IS HEREBY ORDERED THAT Appellant’s
MOTION FOR RECONSIDERATIN be, and is hereby
DENIED.
IT IS FURTHER ORDERED that this Appeal
remains DISMISSED.
DATED this 23 day of July, 2020.
By Order of the Supreme Court
Roger Burdick
Chief Justice
Attest*
Melanie Gagnepain
Clerk of the Courts

37

APPENDIX G1 of 17
MARILYNN THOMASON, pro-se
2184 Channing Way, Box 251
Idaho Falls, Idaho, 83404
208-419-5638
IDAHO SUPREME COURT
From
IN THE DISTRICT COURT OF THE SEVENTH
JUDICIAL DISTRICT OF THE STATE OF IDAHO,
IN AND FOR THE COUNTY OF MADISON
BENEFICIAL FINANCIAL) Idaho Supreme Court
)
I INC.,
Plaintiff-Respondent,
) Appeal Number^
) Docket No. (Appeal No.
) 46509-2018
v.
) Madison County
) District Court
) No. CV-2015-74
MARILYNN THOMASON, )
Non Served Named ) THOMASON’S
Defendant,
) MOTIONS’
APPELLANT
) SUPPORTING
And
) BRIEF, AFFIDAVIT
The Unknown Heirs,
) AND PROPOSED
Assigns and Devisees
)ORDER
of BYRON T, MADISON
) I.A.R. Rule 28(a), (b),
COUNTY, IDAHO; JOHN ) (c), (e), (f), (g)(1), (h)
)
BAGLEY, TERRENCE

38

APPENDIX G2 of 17
BAGLEY, BEARD ST.
CLAIR GAFFNEY PA,
GREG V. THOMASON,
DIANA THOMASON,
W. BRENT EAMES,
LIBERTY PARK
IRRIGATIONS CO,
RIGBY, ANDRUS &
RIGBY CHARTERED,
ABUNDANT LAND
HOLDINGS, LLC,
THOMAS C. LUTHY,
LAURA B. LUTHY,
FORSBERG LAW
OFFICES, CHTD,
R. SAM HOPKINS,
and DOES 1-20
Defendants/1)

) OBJECTION TO
) SERVED R.O.A.
) (and)
) I.R.C.P. Rule 11
) SANCTION
) AGAINST
) Attorney Lewis N.
) Stoddard and Law
) Firm
)

) ORAL ARGUMENT
) REQUESTED
)

) (Trial By Jury Action)
)
)
)
)
)

Defendant names have been incorrectly listed
(1)
as parties by the Idaho Supreme Court on 12/20/2018
and under Deputy A.G. Brian V. Church (CHURCH)’s
documents created jointly by the Idaho Attorney
General - Lawrence G. Wasden ■ Chief of Civil
Litigation, Steven L. Olsen and (CHURCH) on
Saturday, January 12, 2019, (Judicial Notice-'
Appellant’s filing dated January 25, 2019 with
attached EX C.U6- Thomason’s Objections and
Denials to Deputy A.G. Brian Church’s January 12,
2019 Motion-Memo, etc.) and on the 20th of March,

39

APPENDIX G3 of 17
2019 Attorney Stoddard furthers the fraud upon the
G1 of
court when Attorney Stoddard fraudulent attempt to
change the title page Plantiff name from Beneficial
Financial I. Inc. to John Patrick Grayken dba LSF10
Master Participation Trust.
SUPPORTING BRIEF
I. OBJECTION TO COURT CLERK’S SERVED
R.O.A.
(Thomason) filed the first of five timely notice of
appeal nearly seventeen (17) months ago which
included not only a specific list of each document
required and requested but complete copies (bound)
with the timely notice of appeal;
The court clerk had a simple and routine job to
making copies of the required and requested
documents, have the copies indexed, bound and
served under I.A.R. 28 and 29, [which, originally, took
(Thomason) 4 hours, which included driving 25 miles
to have all the copies made, including the multiple
sets sent to the Idaho Supreme Court, have every
volume bound and packaged for shipment] the court
clerk originally requested two (2) times for an
extension to have the clerk’s records prepare, which
per the certificate of compliance evidences it was done
not by the person the Idaho Supreme Court ordered
to have the clerk’s records prepared, but was done by
an unidentified person for and in behalf of the court
clerk;
The following objections, requests for correction,
deletions and oral arguments for removal of
documents and/or correction of documents from the

40

APPENDIX G4 of 17
served R.O.A. are based and allowed under the I.A.R.
Rule 28(a), (b), (c), (e), (f), (g)(1) and (h) (inter alia
auctoritate, statuta etpraeceptaX
The appeal pending before the Idaho Supreme
Court under appeal no. 46509-18 is a direct appeal for
an administrative action under I.C.A.R. Rule 59,
which solely involves (THOMASON), Lewis N.
Stoddard and his law firm, former Adm. Judge, Joel
Tingey and former District Judge, Gregory Moeller
and Judge Boyce 5
There still has never been any final nor appealable
order, that has been issued with any level of threshold
standing and court subject and personal jurisdiction,
nor any appealable order that conforms with I.R.C.P.
Rule 54(a)(1) judgment and/or ruling/memorandum
duly or timely served upon (THOMASON) or filed in
this action that is appealable from action CV-201574’s original alleged complaint, filed on the 12th of
February, 2015, over five (5) years from when the
alleged line of credit, secured by a deed of trust, had
been paid in full (December, 2009) from the last
demand for payment for all final interest and
principle (November 1, 2009 through November 30,
2009) via HSBC — Beneficial, Inc. There was never
any duly nor timely recorded transfer of any alleged
interest from HSBC and/or Beneficial, Inc. at any
time, including through 2018;
There is only one possible action that could have
been deemed an appealable action and that was the
sole stipulation between original named plaintiff and
the law firm of Rigby, Thatcher, Rigby for their
alleged client, Liberty Park Irrigation CO. of which

41

APPENDIX G5 of 17
(THOMASON) nor anyone else was party to, of which
no appeal has been taken by either party,’
The district court has lacked any and all subject
matter jurisdiction to entertain any acting under the
alleged original February 12, 2015 action, CV-201574, for the lower district court action is a feigned
action that is barred by the Idaho Constitution Article
V Section 1 [JudicialNotice-' Thomason July 16, 2018
Objection pp. 20-25] and further barred by Idaho
Statutes of Limitation [Judicial Notice'- Thomason’s
July 6, 2015Motion - Memorandum pp. 34-39]
However under the I.C.A.R. 59 action which
occurred only after (Thomason) had evidence to the
court that Attorney Stoddard and his law firm were
filing documents with the court that were materially
and fraudulently different from what Attorney
Stoddard and his law firm were delivering to
(Thomason) within the CV-2015-74 action, the
I.C.A.R. 59 action/appeal resulted by direct actions by
Attorney Stoddard, former district judge, Gregory
Moeller and Administrative Judge Joel Tirigey, which
this court has authority to entertain (THOMASON)’s
motion for correction of court clerk’s R.O.A. and to
entertain (THOMASON)’s motion for sanctions
against Attorney Lewis N. Stoddard and his stated
law firm and other(s), under I.R.C.P. Rule 11 for
frivolous filings from the time of appeal until this
filing and I.C.A.R. 59;
The Idaho Supreme Court ordered the district
court clerk, Angie Wood to prepare the required
clerk’s records, of which falls under I.A.R. 28 and 29
of which has not been done, however on December

l

42

APPENDIX G6 of 17
13th, 2019 at approx. 02-12 PM (MST), Clerk Angie
Wood informed me she had prepared the appeal
records to the specific instruction she had been given,
which do not, as the first appeal records evidence,
conform to Idaho Appellate Rules 28 and 29, which
are not,'
The court clerk sent to (Thomason) a box [tracking
number 9114902307224588263349] of loose papers
totaling (632) six hundred and thirty-two pages of
which (2) two pages [page 492 and 493] have page
numbers that are not the same type setting as the
remaining 630 pages, in addition to the first appeal
records that had three blank pages on both sides, (6)
six pages were not numbered and (1,029) one
thousand twenty nine pages were miss numbered and
out of sequence, in direct violation of I.A.R. 28(1)
“... clerk’s... records
shall
be
inserted
chronologically. ..by date...n umbered consecutively a t
the bottom of the page. The n umbering shall include
every page included in the record even ifit was not a
filed document, such as the title page, the table of
contents, the index, and the registers of action. Each
volume... shall contain no more than 200pages...
The clerk further violated I.A.R. 28(e) by
delivering all (1,032) plus the additional 632 pages in
a loose format when I.A.R. 28(e) requires all the
clerk’s court records be bound in 65 pound or greater
paper stock at the top edge of the documents so to
allow to be laid open flat. I.A.R. 28(e) “Cover of
Record. The clerk’s...record shall be bound with a
cover of 65 pound paper stock or heavier. ..fastened at
the top edge so as to open as flatly as possible.

43

APPENDIX G7 of 17
EX A.9 evidences (THOMASON) solely requested
the cover page of filing 03/30/2015 and 03/16/2015 so
to evidence that the March 16, 2015 (Thomason’)
Notice of Removal to Federal Court Jurisdiction and
March 30, 2015 Third Party Complaint solely fell
under Federal Jurisdiction, and was never under the
7th Judicial District Court-Madison County, Idaho
Jurisdiction and to evidence that the R.O.A.’s had
been fraudulently altered after the fact within the
court system;
Not only is there no included index of the court
records in this current second appeal court records,
the delivered clerk’s record is void of the required
reference to the electronic documents to the hardcopy
clerk’s records, as required under I.A.R. 28(g)(1) that
references each document in any electronic filed
records directly to the hardcopy records. I.A.R. 28(a)
and (a)(1), (2) Table of Contents and Index ofRecordElectronic Bookmarks, (l) Hard Copy Record. Each
volume of the clerk’s...shall contain a chronological
table of contents of the documents included in the
entire record and shall have an alphabetical index
indicating the volume and page where each pleading,
document of or paper may be found... (2)...An
electronic clerk’s ...record shall contain electronic
book marks that links to each document in the
electronic record.
Failing to have electronic file references to the
hardcopy clerk’s records opens the appeal proceeding
to a level of fraud that would undermine the entire
appellate proceedings and give an avenue in legal
proceeding that allow parties and their legal counsels
to conceal deliberate acts of fraud upon the court by

44

APPENDIX G8 of 17
filing with the court documents that do not match
documents served upon opposing parties and their
legal counsel, especially seeing the electronic records
work off a specific identification address which a
person/legal counsel is directed to and by just adding
a single “period” or any other character to the address
could easily direct one party to a set of electronic
documents that appeared to be an identical match to
opposing parties, but under a scheme to defraud could
easily add and/or alter a document for a specific group
of viewers, for example an appellee/legal counsel and
the Supreme Court may obtain an address that take
the searcher to one set of documents, yet the
appellate/legal counsel’s address take the searching
party to an altered set of documents;
As noted in the first appeal clerk court records,
“For example, in this appeal action, the Idaho
Attorney General - Deputy Church made a direct
reference to an alleged memo/order by his client,
former district judge Gregory Moeller, allegedly dated
December 31, 2018, which was at no time ever served
upon (Thomason) and even the clerk’s records, some
90 days later and the R.O.A. are void of any such
alleged December 31, 2018 memo/order, hence the
motion for sanctions, sua sponte, by (Thomason)
against Deputy Church for frivolous and fraudulent
filings in this appeal under I.C.P. R. Rule 11”;
When (Thomason) filed her notice of appeal
(Thomason) also filed bound copies, in four (4)
volumes with each and every document necessary for
the appeal and without any filing by anyone else, the
clerk added (349) three hundred forty nine pages to
the clerk’s records in direct violation to I.A.R. 19(c)

45

APPENDIX G9 of 17
[Request for additional documents by motion.] and
19(e) [Sanctions against whomever attempted add to
the appellant’s requested documents without proper
notice and required motion under I.A.R. 19(c) “I.A.R.
19(e) Sanctions. If the court concludes that a party or
attorney has vexatiously or unreasonable increased
the cost of litigation by inclusion of irrelevant
material the court may deny that portion...and/or
impose monetary sanctions...
Attorney Stoddard and his law firm have
repeatedly attempted to illegally file unauthenticated
and non-adjudicated documents, under bogus judicial
notices with this and other courts, as did the Idaho
Attorney General for and in behalf of their clients,
including their current client, former judge Gregory
Moeller, of which every court has declined to judicially
notice, including the former district judge, Gregory
Moeller!
(Thomason’s) appeal requests, since 2018
beginning with I.C.A.R. 59 judgment, without any
index to substantiate what records have been
submitted to THOMASON vs. other parties and the
Idaho Supreme Court would be detrimental to
THOMASON’s appeals seeing the clerk and other
parties could easily substitute documents, one group
of document to THOMASON to rely on and a complete
different set of documents other parties and the Idaho
Supreme Court would rely on, creating an avenue for
fraud upon the court, of which THOMASON has
undisputedly evidenced in this action that not only
was the Plaintiffs attorney filing one set of documents
with the court, which the court relied upon, and a
complete different set of documents that

46

APPENDIX G10 of 17
THOMASON was relying, which Judge Moeller also
did when he alleged that he was relying on the
testimony in the I.C.A.R. 59 action of a person who
died some 4 years before the action occurred and at no
time ever testified with regards to the issues in this
action^
Upon the upcoming hearing and in addition to the
first 1032 documents that the clerk of the court
delivered in this appeal action, actual page number
54-532 clerk’s number page numbers 48-547, are
(499) four hundred ninety-nine pages that strictly fall
under a Federal action never merged with civil action
CV-20015-74 of which records filed under “Notice of
Removal to Federal Court Jurisdiction” had been
wrongfully and for an improper purpose been added
by the clerk of the court in violation of I.A.R. 19(c) for
and in behalf of opposing counsel, Attorney Stoddard,
without any request nor duly filed motion, knowing
the 499 pages are not nor have ever been relevant to
the original action CV-2015'74 or this pending appeal
but include in part Attorney Stoddard’s and his law
firms attempt to an illegal judicial notice (clerk’s
record pages 149-208) and a copy of a federal
complaint (clerk’s record pages 48-547) which the
court must order to have removed from the appeal
clerk’s records and have sanctions imposed either
against the court’s clerk and/or opposing party and
its appearing attorney Stoddard and law firm in the
amount that would deter such abuse and fraudulent
actions in a judicial procedure, which under the
reported annual revenue of Attorney Stoddard’s law
firm should be equivalent in nature, for example if the
law firm grosses one million dollars per month,

47

APPENDIX Gil of 17
($32,786.00 per diem) and the delay cause by the
improper inclusion of the 499 pages, plus hearing, re­
compiling clerk’s record and additional 28 days to
review and file any necessary objections to a second
attempt at a correct clerk’s records totals 70 days in
delays for a sanction of $2,295,020.00 (two million two
hundred ninety-five thousand twenty United States
current currency) of which the court has discretion to
sanction for and in behalf of the Great State of Idaho’s
Judicial system and a minimum to cover direct costs
of $148.25 payable to (Thomason) for having to file
this objection and motion for sanctions, especially
seeing the fraud upon the court was deliberately
construed to deceive the court, make a mockery of the
judicial procedures and show a blatant contempt for
the robe, when clerk’s record page 148 ends on a
federal filing by (Thomason) and clerk’s record 149 is
a federal filing by Attorney Stoddard law firm which
the court clerk deliberately left out page one (l) of
their filing which was a rejected and denied attempt
for a fraudulent judicial notice that Attorney
Stoddard’s law firm solely filed in a Federal Action not
connected with the CV-2015-74 action,'
The court clerk should also be sanctioned under
appropriate administrative rules, as the court deems
necessary to prevent any such disregard for the direct
order given by the Idaho Supreme Court to prepare a
true and correct clerk’s record, in a specific time and
under I.A.R. Rule 28 as well as Rule 29 requirements;
Upon the court clerk correcting the additional
records sent on December 13, 2019, received on
December 14, 2019, [which evidences it does not take
12 days for THOMASON to receive mail from the

48

APPENDIX G12 of 17
clerk, as THOMASON has evidenced mail being inhouse post marked, which was received almost 14
days later and the USPS evidences the parcel/letter
did not enter into their system some 11 days after the
clerk’s in-house port mark] THOMASON reserves the
legal right to amend this NOTICE of OBJECTION of
CLERK RECORDS upon finding any additional
errors in what THOMASON had requested in each of
her appeals beginning in 2018 and ending in 2019;
The court must review further and order to have
the clerk’s records corrected to include the true and
correct filings by (Thomason) including:
July 6, 2015 63 pages (EX A.8-9 reference pages
614-676) of which the clerk of the court only included
7 pages;
Sept. 1, 2015 22 pages (EX A. 7 reference pages
524-545) of which the clerk of the court only included
21 pages;
Oct. 6, 2015 50 pages (EX A. 7 reference pages
438-487) of which the clerk of the court only included
37 pages;
June 9, 2016
5 pages (EX A.6 reference pages
433-437) of which the clerk of the court only included
NOTHING;
Nov. 17, 2017 10 pages (EX A.6 reference pages
408-417) of which the clerk of the court only included
NOTHING;
Feb. 28, 2018 22 pages (EX. A.6 reference pages
355-376) of which the clerk of the court only included
18 pages;

49

APPENDIX G13 of 17
July 9, 2018
11 pages (EX. A.5 reference pages
290-300) of which the clerk of the court only included
NOTHING;
Aug. 1, 2018
67 pages (EX. A.4 reference pages
198-264) of which the clerk of the court only included
51 pages;
Aug. 6, 2018
10 pages (EX. A.4 reference pages
188-197) of which the clerk of the court included 15
pages;
Aug. 28, 2018 32 pages (EX. A.3 reference pages
111-113, 138-140) of which the clerk of the court only
included 3 pages;
Sept. 12, 2018 24 pages (EX. A.3 reference pages
114-137) of which the clerk of the court included 25
pages,
Sept. 27, 2018 610 pages (EX. A.3 reference
pages 69-678) of which the clerk of the court
references 7 pages and only included 466 of the 610
pages of (Thomason) requested;
ADDITIONALLY nowhere in the documents
delivered to (Thomason) was there any alleged
December 31, 2018 alleged memo/order alleged by
legal counsel for former Judge Gregory Moeller which
Deputy Attorney General Church claimed existed, not
even on any R.O.A. on December 31, 2018 or as of this
filing;
(Thomason) reserves the right to further review
for court clerk errors once the missing documents
requested by (Thomason) have been included in the
clerk’s records (AND)
(Thomason) reserves the right to further review
the new court clerk records after the 499 bogus

50

APPENDIX G14 of 17
documents are removed from the court clerk’s records
and the records conform with I.A.R. 28, including the
required reference to any and all electronic records;
II.
PRAYERS
(Thomason) respectfully request the court to:
ORDER the court clerk to correct the Clerk’s
Records as detailed above and in conformance to
I.A.R. 28 and 29;
ORDER the court clerk to comply within 14 days;
ORDER the court clerk to reimburse (Thomason)
for the added cost incurred to object to the court
clerk’s first appeal records, in the amount of $543.05;
GRANT (Thomason)’s pending motion for sua
sponte SANCTIONS against Deputy Attorney
General - Church;
GRANT (Thomason)’s sua sponte motion for
SANCTIONS against Attorney Stoddard and his law
firm for fraudulently inserting into appeal records
their repeated and failed attempts for judicial notice,
as noted above;
GRANT any and all other relief that the court
deems necessary and proper to preserve justice
against the court clerk, legal counsel Lewis Stoddard
and his law firm and Deputy Attorney General Church;
January 20, 2019
Marilynn Thomason
(Note: Filed motions and supporting affidavit and notice of
service are within original filings and in original exhibits
and will be produced upon request during this action for
Writ)
///End of 20 page 5,265 word Document///

51

APPENDIX G15 of 17

PROPOSED 2 page ORDER FOLLOWS THIS PAGE
PROPOSED ORDER
IT IS HEREBY ORDERED, for good cause,
WITHIN fourteen (14) days from this ORDER:
The 7th District Court in Madison County,
Idaho’s clerk, Angie Wood, shall correct the Clerk’s
Records of Appeal to conform to the requested
documents noted in the appeal notice 4 volume Record
of Excerpts!
The 7th District Court in Madison County,
Idaho’s clerk, Angie Wood, shall remove from the
Clerk’s Records of Appeal any document that was not
specifically requested in the appeal notice 4 volume
Record of Excerpts and the needed 3 additional
Record of Excerpts;
The 7th District Court in Madison County,
Idaho’s clerk, Angie Wood, shall personally ensure the
clerk records are in conformance to I.A.R. Rules 28
and 29, to the fullest extent;
The 7th District Court in Madison County,
Idaho’s clerk, Angie Wood, shall have the correct clerk
court records sent, by certified mail to the mailing
address of appellant, Marilynn Thomason;
The 7th District Court in Madison County,
Idaho’s clerk, Angie Wood, shall personally reimburse
by certified check, payable to Marilynn Thomason in
the amount of $543.05 for the added cost to object to
the court clerk’s first appeal records;
GRANT
(Thomason)’s
pending
motion
(January 25, 2019) for sua sponte SANCTIONS

.»

52

APPENDIX G16 of 17
against Deputy Attorney General — Church, in the
amount of $245.24 by certified check payable to
Marilynn Thomason for added cost to these
proceedings, in violation to I.R.C.P. Rule 11;
GRANT
(Thomason)’s
pending
motion
(January 25, 2019) for sua sponte SANCTIONS
against Deputy Attorney General - Church, in the
amount of $25,000.00 for frivolous and malicious
behavior payable to the Great State of Idaho —
Judicial Division and/or judicial misconduct
proceedings before the Idaho Judicial Board of
Review;
GRANT (Thomason)’s sua sponte motion for
SANCTIONS in the amount of $2,500.00 payable to
Marilynn Thomason against Attorney Stoddard and
his law firm for the malicious and fraudulent
insertion of their repeated and failed attempts for
judicial notice, via the court clerk;
GRANT (Thomason)’s sua sponte motion for
SANCTIONS in the amount of $2,295,020.00 payable
to the Great State of Idaho — Judicial Division and/or
judicial misconduct proceedings before the Idaho
Judicial Board of Review against Attorney Stoddard
and his law firm for their fraudulently inserted
repeated and failed attempts for judicial notice into
the appeal court records, via the aid of the court clerk
and/or judicial misconduct proceedings before the
Idaho Judicial Board of Review, seeking permanent
disbarment from any legal practice within the Great
State of Idaho;
GRANT any and all other relief against the
court clerk, legal counsel Lewis Stoddard and his law
firm and Deputy Attorney General — Church that the

>@

53

APPENDIX G17 of 17
court deems necessary and proper to preserve justice
and the integrity of the judicial machinery within the
Great State of Idaho;
DATED this

2020.

Presiding District Judge

v *

54

APPENDIX HI of 6
I.A.R. 28 Preparation of clerk's or agency's record Content and arrangement
Idaho Appellate Rule 28. Preparation of Clerk's or
Agency's Record - Content and Arrangement.
(a) Designation of Record. Parties are responsible for
designating the documents which will comprise the
clerk's record on appeal. The standard record
described in subsection (b) is not designed to include
many items i.e., motions for summary judgment,
affidavits, jury instructions, etc.) which may be
pertinent to the appeal in a specific case. Parties
are encouraged to designate a clerk's or agency's
record more limited than the standard record.
(b) Content ■ Standard Record. The clerk's or agency's
record shall automatically include the following
pleadings and documents, including the following
pleadings and documents filed in the magistrates
division^
(l) In civil cases and proceedings, unless limited by
designation in the notice of appeal or amended notice
of appeal:
A. Register of actions.
B. Any order sealing all or any portion of the record.
C. The original and any amended complaint or
petition.

*o

h

55

APPENDIX H2 of 6
D. The original and any amended answer or response
to the complaint or petition.
E. The original and any amended counterclaim, third
party claim, or cross-claim.
F. The original and any amended answer or response
to a counterclaim.
G. The jury verdict rendered in a jury trial.
H. The findings of fact and conclusions of law and
any memorandum decision entered by the court.
I. All judgments and decrees.
J. A list of all exhibits offered, whether or not
admitted.
K. Notice of appeal and cross-appeal.
L. Any request for additional reporter's transcript or
clerk's record.
M. A court reporter's notice of lodging with the
district court.
N. Table of contents and index, which shall be placed
at the beginning of each volume of the record...
(3) In administrative proceedings^
A. Any order sealing all or any portion of the record.

\''6-

56

APPENDIX H3 of 6
B. Any original or amended complaint, petition,
application or other initial pleading.
C. Any answer or response thereto.
D. All documents relating to an application or petition
to intervene.
E. Any protest or other oppositions filed by a party.
F. Certificate listing A list of all exhibits offered,
whether or not admitted.
G. The findings of fact and conclusions of law made by
a referee or a hearing officer.
H. The findings of fact and conclusions of law, or if
none, any memorandum decision entered by the
agency.
I. The final decision, order or award.
J. Petitions for rehearing or reconsideration or orders
thereon.
K. Notice of appeal and any notice of cross-appeal.
L. Any request for additional reporter's transcript or
agency's record.
M. Table of contents and index.

s .? 6

57

APPENDIX H4 of 6
Additional Documents. The clerk's or agency's record
shall also include all additional documents requested
by any party in the notice of appeal, notice of cross­
appeal and requests for additional documents in the
record. Any party may request any written document
filed or lodged with the district court or agency to be
included in the clerk's or agency's record including,
but not limited to, written requested jury
instructions, written jury instructions given by the
court, depositions, briefs, statements or affidavits
considered by the court or administrative agency in
the trial of the action or proceeding, or considered on
any motion made therein, and memorandum opinions
or decisions of a court or administrative agency.
(d) Preparation of Record. The clerk shall prepare
the record on paper by making clearly and distinctly
legible photocopies or other reproductions of all
documents included in the record. The clerk shall
type or have typed any document which cannot be
reproduced in a distinctly legible form.
(e) Cover of Record. The clerk's or agency's record
shall be bound with a cover of 65 pound paper stock
or heavier material and shall not have a plastic or
acetate cover. The record shall be fastened at the top
edge so as to open as flatly as possible.
(f) Arrangement and Numbering. All pleadings,
documents, and papers required to be in the clerk's

58

APPENDIX H5 of 6
or agency's record shall be inserted chronologically as
indicated by the date of filing. Each page of the
or
clerk's
agency's
record
shall
be
numbered consecutively at the bottom of the page.
The numbering shall include every page included in
the record even if it was not a filed document, such as
the title page, the table of contents, the index, and the
register of actions. Each volume of the clerk's or
agency's record shall contain no more than 200 pages
unless the record can be completed in 250 pages.
(g) Table of Contents and Index of Record-Electronic
Bookmarks.
(l) Hard Copy Record. Each volume of the clerk's
or agency's record shall contain a chronological table
of contents of the documents included in the entire
record and shall have an alphabetical index
indicating the volume and page where each pleading,
document or paper may be found.
(2) Electronic Copy of Record. An electronic clerk
or agency's record shall contain electronic bookmarks
that link to each document in the electronic record.
(h) Certificate of Clerk. The clerk of the court or
administrative agency shall certify at the end of the
record, that the record contains true and
correct copies of all pleadings, documents and papers
designated to be included in the clerk's or agency's
record by Rule 28, the notice of appeal, any notice

~

>
V

59

APPENDIX H6 of 6
of cross-appeal, and any designation of additional
documents to be included in the clerk's or agency's
record. The clerk's or agency's record shall also
include the certificate required by Rule 31(d).
(i) Certificate of Service. The clerk shall certify in the
record, or in the clerk's certificate, the date of service
of the record and the transcript on the parties or their
counsel.
(Adopted March 25, 1977...amended May 5, 2017,
effective July 1, 2017.)

Marilynn Thomason, pro_se
2164 Channing Way, Box 251
Idaho Falls, Idaho 83404
208-419-5638
February 17th, 2021
SUPREME COURT OF THE UNITED STATES
Office of the Clerk
1 1st Street NE
Washington, DC 20543-0001
ATTEN: Scott S. Harris, Clerk (202-479-3392)
RE: Submitted Amended Petition
Dear Mr. Harris,
Enclosed, please find a re-submitted filing received by SCOTUS on 02/17/2021
Tracking No: EJ3928873392US:
1.) The Amended Petition for Writ of Certiorari you have graciously
permitted to be amended, with the requested Order Denying
Reconsideration for jurisdiction requirement, with corresponding
correction notations on pp.l, 4, 6, 15, 36.2 and 36.3, in bold print;
After sending SCOTUS its copy, I discovered the printer was set at about 125%
instead of 100%, causing the pages noted in ‘1.)’ to be set at the correct format, but
magnified at the printer’s end.
This re-submission is still within the time frame set by your request and hopefully
will not be considered untimely or redundant.
Thank you for your consideration.
ncerety,

Marilynn Thomason

Enclosures: Resubmitted Amended Petition

RECEIVED
FEB 2 5 2021

